U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                 NATIONAL WEATHER SERVICE

                Complaints Surrounding the Recent
           Selection Of The Assistant Administrator
                              for Weather Services


       Final Inspection Report No. IPE-16823-4/April 2004




                             PUBLIC
                             RELEASE



           Office of Inspections and Program Evaluations

meteorology. It should be noted, however, that the first PTQ on the vacancy announcement
does specify that candidates will be rated on their “broad background in physical and
atmospheric sciences with demonstrated professional experience in one or more of the
following: meteorology, weather research, hydrology, and/or environmental science.”

The individual selected was rated at least well-qualified for the position

General David Johnson, who was ultimately selected for the Assistant Administrator position,
did not list a degree in meteorology among his qualifications. Nonetheless, all members of the
panel of experts assembled to review the applications of candidates for the position rated
General Johnson at least “well-qualified,” using the PTQs contained in the vacancy
announcement. Accordingly, the screening panel found that General Johnson possessed the
broad experience and knowledge necessary to perform the duties of the position as it was
advertised.

All candidates referred for selection by NOAA HRM were rated as being at least “well­
qualified” by the panel

In considering the second part of the complaint about whether additional unqualified or
experienced candidates were added to the screening panel’s recommended list of candidates,
we looked at how the panel operated. We found that after the five- member screening panel
was selected, its members individually reviewed the applications of the seven candidates that
were deemed minimally qualified by NOAA’s HRM office. The panel members then
participated in a telephone conference call to discuss and rate the candidates and determine a
list of “best-qualified” candidates to be referred to the selecting official. Only four members of
the panel participated in the conference call; the fifth member could not participate because of
a family emergency. This absent panel member submitted his ratings to NOAA HRM about
one week after the panel’s conference call. Although the ratings of the individual panel
members for each candidate are documented, there was no written recommendation or
consensus reached by the panel of the group of “best-qualified” candidates to be referred to the
selecting official.

When we interviewed NOAA’s HRM Director regarding the role he played in the selection
process after the panel ratings were submitted, he recalled being told that there was some
disagreement among the panel members as to who should be referred on to the selecting
official. He said that the panel members were trying to differentiate between the five
candidates they found as “well-qualified” and not refer all of those candidates along with the
one candidate rated highly-qualified. We also spoke with each of the panel members, and they
had no consistent recollection about which candidates the panel decided to refer as “best­
qualified.” (See attachment for a detailed discussion of the screening panel process and the
formation of the “best-qualified” list.)

Although clear consensus was not reached on a “best-qualified” list of candidates, the
screening panel did not again deliberate as a group. Instead, the Director, NOAA HRM,
decided to resolve what he thought was the panel’s impasse by referring to the selecting
official all the “well-qualified” candidates in addition to the “highly-qualified” candidate, for a
total of six candidates. Given their qualifications and the fact that the panel had deemed the


                                                 2

five individuals to be well-qualified, the NOAA HRM Director indicated that he saw no need
to stratify the well-qualified candidates and instead decided to send all well-qualified
candidates forward along with the one highly-qualified candidate.

We confirmed that all six candidates referred for selection were rated either “highly-qualified”
or “well-qualified”.

NOAA needs to improve and comply with its Executive Resources Merit Staffing and
Recruitment Plan

We found that NOAA’s selection procedures, as outlined in its Executive Resources Merit
Staffing and Recruitment Plan, are incomplete and were not always followed in the selection
process for this position. In reviewing those procedures to determine whether the established
process for selecting SES employees was properly followed in this case, we found that the plan
calls for the screening panel members to rate/rank each applicant and to sign off on an overall
final ratings form for all the candidates. The panel never signed off on that final ratings form.
In addition, the NOAA plan requires that the panel identify a list of “best-qualified” candidates
that are then included on an SES Selection Certificate, which is transmitted to the selecting
official. The plan’s procedures, however, do not specify how the list of “best-qualified”
candidates is to be documented by the panel, but it is clear in this case that that decision was
not documented. Further, the plan is silent on how to resolve any disagreement among
screening panel members. Likewise it is silent on whether the NOAA HRM Director, or other
HRM official, has authority to unilaterally decide which candidates to refer if the panel cannot
reach consensus. It should be noted that at the departmental level, Commerce’s Executive
Personnel Policy Manual does indicate that the HRM manager is responsible for resolving
differences.

When we checked with the Department’s HRM Director, she indicated that HRM officials
normally try to get a consensus from a screening panel on the list of best-qualified candidates
that is sent to the selecting official. In this instance, she believes that NOAA’s HRM office
should have tried to reach a consensus by scheduling another conference call between all five
screening panel members, but she said that there was nothing illegal or wrong per se with how
NOAA handled the matter.

Thus, we have concluded that it would have been prudent for NOAA’s HRM Director to
reconvene the panel to obtain such a consensus. However, given the small number of highly-
and well-qualified candidates, it appears that the NOAA HRM Director’s decision to refer all
such candidates was reasonable. He, in fact, erred on the side of caution by including all
“highly-qualified” and “well-qualified” candidates on the list sent to NOAA management. As
he told us, he did this since referring six candidates was not going to result in an unwieldy
number of candidates for the selecting official to consider and interview.

Recommendations

In the future, to avoid such problems, we recommend that NOAA more thoroughly document
the decisions of its screening panels, to include drawing up a decision document that each



                                                3

panel member must sign to signify that he/she concurs with the final ratings for each candidate
and the “best-qualified” list to be referred to NOAA management.

We also recommend that NOAA revise its procedures, as outlined in its Executive Resources
Merit Staffing and Recruitment Plan, to include instructions on what to do if a panel fails to
reach a consensus on which candidates should be referred. It should clearly set forth under
what circumstanc es the Director, NOAA HRM, has the authority to transmit to the selecting
official a list of “best-qualified” candidates that differs from the screening panel’s decision.
The NOAA Plan should also be reviewed to identify any inconsistencies with departmental
guidance and be revised as necessary.

Please provide an action plan, within 30 calendar days, addressing NOAA’s planned actions to
correct the problems identified in this memorandum. We thank the personnel in NOAA for the
assistance and courtesies extended to us during our inquiry. If you have any questions or
comments about our findings or recommendations, please feel free to contact me on
(202) 482-4661, or Jill Gross, Assistant Inspector General for Inspections and Program
Evaluations, at (202) 482-2754.

Attachment

cc: John J. Kelly, Deputy Under Secretary for Oceans and Atmosphere
    Otto Wolff, Chief Financial Officer and Assistant Secretary for Administration




                                                4

The Director’s decision was communicated to the screening panel members in an e-mail
message on September 29, 2003. One panel member told us that he felt the panel’s work was
rendered meaningless by this action and that the Director could have reached the same
conclusion without the panel’s efforts to differentiate between the qualifications of the
candidates. One other panel member expressed the same opinion to us during our interviews.
The SES selection certificate containing the names of six candidates for the Assistant
Administrator for Weather Services was forwarded to the Deputy Under Secretary on October
2, 2003.




                                             3

We conducted this review in accordance with the Quality Standards for Inspections
issued by the President's Council on Integrity and Efficiency, and under authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13,
dated May 22, 1980, as amended.

Program evaluations are special OIG reviews that provide agency managers with
information about operational issues. A primary goal of these evaluations is to encourage
effective and efficient operations, and thus eliminate waste in federal programs. By
asking questions, identifying problems, and suggesting solutions, OIG hopes to help
managers move quickly to address issues and deficiencies uncovered during the review.
Program evaluations may also highlight effective operations, particularly if they are
useful for agency managers or adaptable to programs elsewhere.

Major contributors to this report were Lisa Allen and Deborah Holmes, Office of
Inspections and Program Evaluations.
U.S. DEPARTMENT OF COMMERCE

      Office of Inspector General

         Room 7898C, HCHB

14th Street & Constitution Avenue, NW

        Washington, DC 20230


          Internet Web site:

          www.oig.doc.gov
